   Congressional Response Report



Interagency Agreements with the
Office of Personnel Management
  for Administrative Law Judge
            Services




      A-05-12-22144| February 2013
                                       February 14, 2013


The Honorable Sam Johnson
Chairman, Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Chairman:

On July 19, 2012, you asked that we review the interagency agreement (IAA) between the Social
Security Administration (SSA) and Office of Personnel Management (OPM) for services related
to administrative law judges (ALJ). As part of this review, we determined (1) whether OPM
provided SSA with performance reports related to ALJ services for Fiscal Year (FY) 2011 before
SSA paid for those services; (2) how OPM calculated the charges for ALJ-related services; and
(3) whether available accounting and performance detail adequately supported the amount SSA
paid for these services. Additionally, you asked that we obtain a signed copy of the FY 2012
IAA for review.

The enclosed report addresses your request and concerns about the increasing costs, given the
fiscal constraints limiting the SSA’s administrative funding. To ensure SSA and OPM are aware
of the information provided to your office, we are forwarding a copy of this report to each
agency.

If you have any questions concerning this matter, please call me or have your staff contact
Misha Kelly, Special Agent-in-Charge of Congressional Affairs, at (202) 358-6319.

                                               Sincerely,



                                               Patrick P. O’Carroll, Jr.
                                               Inspector General

Enclosure

cc:
Carolyn W. Colvin
Interagency Agreements with the Office of Personnel
Management for Administrative Law Judge Services
A-05-12-22144
February 2013                                                            Office of Audit Report Summary

Objectives                               Our Findings

To determine (1) whether the Office of   In FY 2011, OPM provided SSA with an annual billing letter and
Personnel Management (OPM)               accompanying statement describing the ALJ work it performed
provided the Social Security             before SSA paid for those services. OPM calculated SSA’s costs
Administration (SSA) with                for ALJ Program services on a pro rata basis after dividing all
performance reports related to           Federal ALJs into the Program’s estimated annual costs. As a
administrative law judge (ALJ)           result, SSA’s costs were based on the number of ALJs the Agency
services for Fiscal Year (FY) 2011       employed. OPM acknowledged ALJ Program costs had increased
before SSA paid for those services;      and attributed these rising costs to (1) developing and administering
(2) how OPM calculated the charges       the previous examination, (2) developing a new examination, and
for ALJ-related services; and            (3) serving a growing ALJ population.
(3) whether available accounting and
performance detail adequately            After SSA reviewed the FY 2011 annual billing letter and
supported the amount SSA paid for        accompanying statement as well as the additional detail provided by
these services. We also reviewed the     OPM, SSA continued requesting more detailed cost information
status of the FY 2012 ALJ interagency    from OPM. While we found OPM’s annual billing letter and
agreement (IAA) process.                 accompanying statement did not provide adequate cost detail to
                                         support the amount SSA paid for these services, OPM provided
Background                               SSA with sufficient cost detail later in FY 2011. We did not
                                         determine the accuracy and completeness of OPM’s information
In a July 19, 2012 letter,               and cost data. OPM’s Office of the Inspector General has
Representative Sam Johnson,              expressed concerns about its lack of resources to provide oversight
Chairman of the Subcommittee on          of all of OPM’s funds, including funding mechanisms involving
Social Security, House Committee on      ALJ Program costs. We believe periodic audits of OPM’s ALJ
Ways and Means, expressed concerns       Program would alleviate some of SSA’s cost-related concerns.
about the increasing costs associated
with SSA’s IAAs with OPM for             In March 2012, OPM concluded that it was not necessary to
services related to ALJs given the       continue entering into IAAs with SSA, given OPM’s legal
fiscal constraints limiting SSA’s        obligation to perform ALJ work and SSA’s legal obligation to
administrative funding.                  reimburse its pro rata share of the cost of that work. As of January
                                         2013, SSA and OPM had not signed a FY 2012 IAA, and SSA had
                                         not reimbursed OPM for ALJ services because they did not agree
                                         on the need for an IAA for SSA to obligate funds. We consulted
                                         with the Office of Management and Budget (OMB) to ascertain its
                                         understanding regarding SSA’s need for an IAA to reimburse OPM
                                         for ALJ services. While OMB did not specifically state an IAA is
                                         required, OMB indicated that, as a general policy and good
                                         practice, IAAs can effectively manage work one Federal agency
                                         performs for another Federal agency. SSA and OPM still need to
                                         address the FY 2012 incurred costs and their future working
                                         relationship in the area of ALJ services.
TABLE OF CONTENTS
Objectives ........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Quarterly Performance Reports .................................................................................................3
     OPM’s Calculation of Charges for ALJ-Related Services ........................................................5
           OPM’s Explanation for the Increase in ALJ Program Costs ...............................................5
     Adequacy of Accounting Detail.................................................................................................6
     FY 2012 Agreement for ALJ-Related Services .........................................................................9
Conclusions ....................................................................................................................................12
Appendix A – Format of a Social Security Administration Interagency Agreement ................. A-1
Appendix B – Administrative Law Judge Examination Process ............................................... B-1
Appendix C – Scope and Methodology ..................................................................................... C-1
Appendix D – Annual Billing Letter and Statement .................................................................. D-1
Appendix E – List of Administrative Law Judge Program Services ..........................................E-1
Appendix F – Administrative Law Judge Program Office Staff ................................................ F-1
Appendix G – Federal Administrative Law Judge Program Agencies ...................................... G-1
Appendix H – Social Security Administration Administrative Law Judge Hiring .................... H-1
Appendix I – Administrative Law Judge Hiring Challenges ...................................................... I-1
Appendix J – Major Contributors............................................................................................... J-1




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)
ABBREVIATIONS
ALJ                  Administrative Law Judge
APA                  Administrative Procedure Act of 1946
AR                   Accomplishment Record
ARRA                 American Recovery and Reinvestment Act of 2009
C.F.R.               Code of Federal Regulations
Fed. Cir.            Federal Circuit
FOIA                 Freedom of Information Act
FY                   Fiscal Year
GAO                  Government Accountability Office
HHS                  Department of Health and Human Services
HR                   Human Resources
IAA                  Interagency Agreement
MSPB                 Merit Systems Protection Board
ODAR                 Office of Disability Adjudication and Review
OGC                  Office of the General Counsel
OIG                  Office of the Inspector General
OMB                  Office of Management and Budget
OPM                  Office of Personnel Management
Pub. L. No.          Public Law Number
RF                   Revolving Fund
SI                   Structured Interview
SSA                  Social Security Administration
SSAB                 Social Security Advisory Board
U.S.C.               United States Code
WD                   Written Demonstration




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)
OBJECTIVES
Our objectives were to determine (1) whether the Office of Personnel Management (OPM)
provided the Social Security Administration (SSA) with performance reports related to
administrative law judge (ALJ) services for Fiscal Year (FY) 2011 before SSA paid for those
services; (2) how OPM calculated the charges for ALJ-related services; and (3) whether
available accounting and performance detail adequately supported the amount SSA paid for these
services. We also reviewed the status of the FY 2012 ALJ interagency agreement (IAA)
process. 1

BACKGROUND
In a July 19, 2012 letter, Representative Sam Johnson, Chairman of the Subcommittee on Social
Security, House Committee on Ways and Means, expressed concerns about the increasing costs
associated with SSA’s IAAs with OPM for services related to ALJs, given the fiscal constraints
limiting SSA’s administrative funding. The letter noted that OPM’s charges to SSA for
ALJ-related services had increased almost three-fold since FY 2005 without any apparent change
in the scope of services over the same period.

Congress first authorized the ALJ position, originally referred to as the "hearing examiner," in
the Administrative Procedure Act of 1946 (APA). 2 In general, ALJs prepare for, and preside
over, formal hearings on the record. The APA provides statutory protections to ensure ALJs
have qualified decisional independence from undue Agency influence. These protections include
making the positions independent of the employing agencies with respect to appointment, tenure,
and compensation. 3 OPM was given the authority to establish ALJ qualifications, administer the
ALJ examination, and maintain a register of qualified candidates for ALJ employment by




1
 An IAA is an agreement or understanding between two or more Federal agencies. SSA policy states it will
establish an IAA when a Federal agency agrees to perform work for SSA and is reimbursed by SSA for that
work. The SSA IAA package includes an Interagency Agreement Data Sheet (Form SSA-429), a memorandum of
understanding identifying the provisions of the agreement, and a clearance memorandum from SSA’s Office of the
General Counsel (OGC). See Appendix A for the format of an SSA IAA memorandum of understanding.
2
 Congress enacted the APA on June 11, 1946. Pub. L. No. 79-404, 60 Stat. 237, 244 (1946) (current version
codified at 5 U.S.C. § 551 et seq.). Section 11 provides for the establishment of the “examiner” (now ALJ) position.
The title of the position was changed to ALJ in 1978 by Pub. L. No. 95-251, 92, Stat. 183 (1978).
3
 Administrative Law Judges at the Social Security Administration: Hearing before H. Ways and Means Committee,
Subcommittee on Social Security, 110th Cong. (May 1, 2007) (written statement of Linda M. Springer, Director,
OPM).



Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)                          1
Federal agencies. 4 SSA’s FY 2011 IAA indicated that OPM would provide a variety of ALJ-
related services, including (1) conducting competitive examinations for ALJ positions;
(2) considering and approving SSA actions on ALJs, including transfers, reassignments, and
reinstatements; and (3) working with SSA to review the ALJ examination program for
effectiveness and efficiency, including identifying needed improvements. SSA’s IAA also stated
that, at least quarterly, OPM would provide SSA with performance reports that detail the work
performed and work with SSA to reconcile balances related to revenue and expenses for work
performed under the IAA.

SSA’s Office of Disability Adjudication and Review (ODAR) is responsible for holding hearings
and issuing decisions as part of SSA’s process for determining whether a person may receive
benefits. In FY 2012, ODAR employed approximately 1,500 ALJs who, in conjunction with
senior attorney adjudicators, issued approximately 820,000 dispositions, of which about
411,000 were allowances. At the end of FY 2012, SSA’s hearings backlog was approximately
817,000 cases. In 2007, SSA’s Commissioner established a goal to reduce the hearings backlog
to approximately 466,000 cases by the end of FY 2013 and the time it takes to process a hearing
to 270 days.

To meet our objectives, we obtained copies of the signed IAAs between SSA and OPM from
FYs 2005 to 2011 as well as documentation supporting the request and payment for ALJ-related
services. We also discussed the status of the FY 2012 IAA. In addition, we communicated with
the SSA components responsible for the approval, monitoring, and payment of the IAAs to gain
an understanding of these processes. We also communicated with OPM executives, managers,
and staff who oversaw and performed ALJ Program services for Federal agencies. Moreover, we
obtained additional accounting and performance details from OPM. Finally, we contacted the
Office of Management and Budget (OMB) to discuss the IAA’s role and the Department of
Health and Human Services (HHS) to discuss its experiences with OPM’s ALJ Program. 5

RESULTS OF REVIEW
In FY 2011, OPM provided SSA with an annual billing letter and accompanying statement
describing the ALJ work it performed before SSA paid for those services. OPM calculated
SSA’s costs for ALJ Program services on a pro rata basis after dividing all Federal ALJs into the
Program’s estimated annual costs. As a result, SSA’s costs were based on the number of ALJs



4
  Pursuant to 5 U.S.C. § 1104(a)(2), Delegation of Authority for Personnel Management, “. . . the Director [of OPM]
may delegate, in whole or in part, any function vested in or delegated to the Director, including authority for
competitive examinations (except competitive examinations for administrative law judges appointed under
[5 U.S.C.] § 3105 of this title, the cost of which examinations shall be reimbursed by payments from agencies
employing such judges to the revolving fund established under [5 U.S.C.] § 1304(e)), to the heads of agencies in the
executive branch and other agencies employing persons in the competitive service.” See Appendix B for more
information about the OPM’s ALJ examination process.
5
    See Appendix C for more information on our scope and methodology.




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)                          2
the Agency employed. OPM acknowledged ALJ Program costs had increased and attributed
these rising costs to (1) developing and administering the previous examination, (2) developing a
new examination, and (3) serving a growing ALJ population.

After SSA reviewed the FY 2011 annual billing letter and accompanying statement, as well as
the additional detail provided by OPM, SSA continued to request more detailed cost information
from OPM. While we found OPM’s annual billing letter and accompanying statement did not
provide adequate cost detail to support the amount SSA paid for these services, we determined
OPM provided SSA with sufficient cost detail later in FY 2011. We did not determine the
accuracy and completeness of OPM’s information and cost data. OPM’s Office of the Inspector
General (OIG) has expressed concerns about its lack of resources to provide oversight of OPM’s
funds, including funding mechanisms involving ALJ Program costs. We believe periodic audits
of OPM’s ALJ Program would alleviate some of SSA’s cost-related concerns.

In March 2012, OPM concluded that it was not necessary to continue to enter into IAAs with
SSA, given OPM’s legal obligation to perform ALJ work, and SSA’s legal obligation to
reimburse its pro rata share of the cost of that work. As of January 2013, SSA and OPM had not
signed a FY 2012 IAA, and SSA had not reimbursed OPM for ALJ services because they
disagreed about the need for an IAA for SSA to obligate funds to reimburse OPM. We consulted
with OMB to ascertain its understanding regarding SSA’s need for an IAA to reimburse OPM
for ALJ services. While OMB did not specifically state an IAA is required, OMB indicated that
as a general policy and good practice, IAAs can be an effective tool for managing work being
performed by one Federal agency for another Federal agency. SSA and OPM still need to
address both the FY 2012 incurred costs as well as their future working relationship in the area
of ALJ services.

Quarterly Performance Reports
In FY 2011, OPM provided SSA with a performance report in the form of an annual billing letter
and accompanying statement dated July 19, 2011 describing the work performed under the IAA 6
before SSA paid for these services. The FY 2011 billing letter provided the following statement
of work performed.

        OPM continues to issue Certificates of Eligibles for ALJ positions, administers
        the quarterly ALJ examination to 10-point preference eligibles under 5 CFR
        332.311, maintains the ALJ register, is updating ALJ announcement/exam
        procedures to meet Federal Hiring Reform initiatives and is currently conducting
        an Occupational Analysis of ALJ positions as part of the new ALJ examination
        development.



6
  While SSA and OPM signed an IAA for the FY 2011 ALJ Program services, during our review OPM emphasized
it already had a statutory obligation to perform the ALJ work covered by the IAA with SSA, and the law obliges
Federal ALJ agencies to reimburse OPM for its ALJ program administration. We discuss this later in the report.




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)                        3
The billing statement also included SSA’s FY 2011 assessment fee rate of $1,526 per ALJ with
the total amount due of $2.2 million. 7 According to OPM managers, OPM generally bills
agencies for ALJ services annually rather than quarterly. 8

OPM also responded to SSA’s questions regarding the activities associated with the amounts
being billed. For instance, on August 26 and September 12, 2011, 9 OPM provided additional
details pertaining to (1) the number of staff working in the ALJ Program, (2) quarterly
examination activities related to veterans, 10 (3) maintenance of the register, and
(4) communications with outside parties. While OPM provided this information to SSA upon
request rather than in a quarterly performance report, OPM could have shared this information
with SSA more regularly.

OPM provided the information above before SSA’s October 2011 payment for the FY 2011 ALJ
Program services. SSA and OPM signed the FY 2011 IAA in September 2011, the last month of
FY 2011, after OPM provided the ALJ services. We believe the Agency could have used the
previous year’s costs as an estimate to obligate funds for the FY 2011 IAA at the start of the
FY. 11 Moreover, the earlier establishment of the IAA would have protected SSA’s ability to
dispute costs related to the bill, if necessary, since that was one of the provisions in the FY 2011
IAA. 12

On September 9, 2011, SSA’s OGC sent a memorandum to the Agency component overseeing
the IAA stating the FY 2011 agreement should have been executed by the parties, and thus made
effective, before, or on, October 1, 2010, in accordance with 31 U.S.C. § 1501. In the letter,
OGC explained

           . . . amounts shall be recorded as obligations only when supported by
           documentary evidence of a binding, written agreement between the agencies.
           Since obligations have been recorded from October 1, 2010 to the effective date
           of this agreement without the benefit of a written agreement, compliance with the
           requirements of 31 U.S.C. § 1501 has not occurred. In the future, you must
           ensure that interagency agreements . . . are executed and in place prior to, or at the



7
    See Appendix D for OPM’s annual billing letter and statement.
8
    5 C.F.R. § 930.203 establishes that OPM compute program costs on an annual basis.
9
    See Appendix E for more information regarding OPM’s list of ALJ Program services.
10
     The examination is opened quarterly for 10-point preference eligible veterans.
11
     We discuss the IAA process in greater detail later in the report.
12
  Section 10 of the FY 2011 IAA, (SSA Agreement Number OPM-11-0002), Dispute Resolution, states “Disputes
related to this IAA shall be resolved in accordance with instructions provided in the Treasury Financial Manual,
Volume 1, Part 2, Chapter 4700, Appendix 10, Intra-governmental Business Rules (June 2011).”




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)                          4
           commencement of, the period of performance. Failure to do so may result in
           disapproval of the interagency agreement.

OPM’s Calculation of Charges for ALJ-Related Services
In accordance with the law, 13 OPM bills Federal agencies for ALJ Program services on a pro rata
share of the estimated costs based on the actual number of ALJs the agency employs. In
FY 2011, OPM’s ALJ Program represented approximately 27 Federal agencies employing
1,704 ALJs. 14 OPM billed SSA approximately $2.2 million, about 85 percent of the
approximately $2.6 million in total costs associated with ALJ Program services in FY 2011. 15
This 85 percent was based on SSA employing 1,448 of the 1,704 ALJs in the Government as of
December 2010. 16

OPM’s Explanation for the Increase in ALJ Program Costs
Between FYs 2005 and 2012, overall OPM charges to SSA for ALJ services have more than
tripled, and the charges per ALJ have more than doubled (see Table 1). OPM indicated that ALJ
costs have increased as a result of (1) development of the examination opened in 2007;
(2) subsequent re-openings of that examination (twice at SSA’s request); (3) development of a
new iteration of the ALJ examination instrument; and (4) a 35-percent increase in the ALJ
workforce requiring OPM’s routine activities related to administering the ALJ Program. 17




13
  Pursuant to 5 U.S.C.§1104(a)(2), Delegation of authority for personnel management, and 5 C.F.R. 930.203, Cost
of competitive examination, agencies pay a pro rata share of OPM’s ALJ Program costs based on the actual number
of ALJs the agency employs.
14
  The count is based on the number of ALJs on hand as of December 2010. Refer to Appendix G for a list of the
27 Federal ALJ Program agencies.
15
   OPM noted that about $440,000 of the FY 2011 charges related to the recovery of losses to the program in FYs
2009 and 2010. According to OPM, under a Revolving Fund, an agency is expected to recover its actual costs over
a reasonable period.
16
     We discuss the costs included in the FY 2011 OPM bill in the section below titled Adequacy of Accounting Detail.
17
  In commenting on our draft report, OPM stated that the work performed in relation to the ALJ Program expanded
significantly in the period between FYs 2005 and 2011. As a result, OPM believed using FY 2005 as a base year for
understanding cost increases may be misleading.




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)                          5
                             Table 1: OPM’s ALJ Program Charges to SSA
                                                    Increase over Previous
                         Assessment Fee                                                   SSA ALJ
             FY                                     Year's Assessment Fee
                          Rate Per ALJ                                                  Program Costs
                                                        Rate Per ALJ
           20051                 $742                          0%                           $785,036
           2006                  $835                      12.5%                            $929,355
           2007                  $895                        7.2%                         $1,012,058
           2008                  $957                        6.9%                         $1,198,500
           2009                $1,180                      23.3%                          $1,423,566
           2010                $1,440                      22.0%                          $1,920,960
           2011                $1,526                        6.0%                         $2,209,648
           2012                $1,633                        7.0%                         $2,395,611
          TOTAL                                                                          $11,874,734
        Note 1: According to OPM’s June 30, 2006 billing letter, the assessment fee rate remained the same in FYs
                2004 and 2005.

Adequacy of Accounting Detail
We found OPM’s annual billing letter and accompanying statement did not provide enough cost
detail to reasonably meet the IAA requirements. 18 The FY 2011 IAA required that, “OPM shall
provide SSA with a performance report (e.g. a billing statement) that details all work performed
to date.” However, when added to the information OPM provided in response to SSA’s
questions, we believe the amount of detail OPM provided in FY 2011 addressed SSA’s request
for information as defined in the IAA. 19

Table 2 provides the breakout of FY 2011 charges provided to SSA after it requested greater
detail from OPM. For instance, OPM noted that 9 full-time employees performed the daily
operations of the ALJ Program, while 11 part-time reemployed retired ALJs performed other
necessary duties associated with the Program. 20




18
     See Appendix D for OPM’s annual billing letter and statement.
19
     See Appendix E for OPM’s list of ALJ Program services.
20
     See Appendix F for more information regarding OPM’s ALJ Program Office staff.




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)                           6
            Table 2: Breakout of Charges Associated with SSA’s FY 2011 OPM Bill
                              Cost Category                                          Charges
          Salaries and Benefits for Administrators                                    $1,613,391.66
          Travel, Training, Supplies, and Miscellaneous                                  $18,489.47
          Infrastructure Support1                                                       $577,766.87
          TOTAL                                                                        $2,209,648.00
        Note 1: Defined as corporate expenses, common services, rent, telecommunications,
                information technology, etc.
        Source: OPM provided this information to SSA on August 26, 2011.

OPM explained that the travel and training costs in Table 2 consisted of ALJ Program staff
attending training to support ALJ examining responsibilities and meetings regarding the review
and disposition of ALJ records and ALJ examination process improvements; travel associated
with conducting Occupational Analysis focus group meetings nationwide; Structured Interview
(SI) Panel members traveling to OPM Headquarters to serve as SI Panel members; and various
training sessions performed in connection with the ALJ examination. According to OPM, the
Infrastructure Support costs included corporate oversight, financial and administrative support
services, legal services, rent and utility expenses, telecommunication, and information
technology. We requested additional detail related to these Infrastructure Support costs. In a
December 13, 2012 written response, OPM informed us it no longer had the documents that
provide further details on the Infrastructure Support costs for FY 2011.

In our conversations with SSA managers, they stated they were not satisfied with the detailed
billings and communications OPM provided to support the ALJ-related costs. 21 For instance,
Agency managers indicated they wanted to see itemized costs for OPM’s work, such as the cost
of each OPM transaction related to SSA ALJ transfers, reassignments, and reinstatements. When
we discussed this with OPM managers, they explained that OPM did not charge agencies per
transaction, but rather, per the law, on a pro rata share of the estimated costs.

Given SSA’s stated desire for more specific break-outs of the ALJ Program’s costs, it is not clear
why this requirement was not incorporated into the wording of the FY 2011 IAA. Based on our
review of changes to the IAA process over the years, it appears SSA’s FY 2011 IAA language
pertaining to “performance reports” and “quarterly” reporting was standard language
recommended for all IAAs rather than something specifically written for the ALJ Program.




21
   During our discussions with HHS managers, we learned that they would be interested in receiving more billing
detail from OPM for ALJ services. HHS managers stated their agency only receives a copy of the annual billing
letter and accompanying statement.




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)                         7
Before 2008, the IAAs referred to an annual “itemized billing statement,” 22 indicating the
performance requirement had become vague over time.

While we believe OPM’s activity and cost data related to the ALJ Program were eventually
responsive to SSA’s IAA requirements, we did not determine the accuracy and completeness of
the underlying activity and financial information. In OPM’s FY 2011 financial statement, 23
OPM OIG auditors highlighted a material weakness related to OIG funding for oversight of
OPM’s revolving fund (RF), which includes funds related to the ALJ Program, noting that

            In FY 2011, the OIG reported that it continues to have a material weakness
            involving oversight of the RF. Furthermore, OIG reported that, although it
            received some funding in its FY 2011 budget for RF audits and investigations,
            the funding is still not sufficient. OIG in FY 2012 will continue to request the
            needed resources for effective oversight of the RF programs, including
            pursuing legislative avenues. It should be noted that this reported weakness
            involves issues outside of OPM’s control (e.g., OMB and Congressional
            budget decisions). Further, OIG has issued an audit report on the RF despite
            funding issues and OPM management is sponsoring two reviews (Deloitte
            Consulting and Lani Eko & Company) to improve oversight of the RF. OPM
            senior management will discuss this issue with senior OIG management in
            FY 2012 on how this weakness can be reduced.

A March 2012 OPM OIG audit of IAAs also identified control weaknesses. 24 Specifically, the
report stated OPM needed to strengthen controls to ensure IAAs are properly executed,
monitored, and managed. The report also made eight recommendations to OPM management
related to (1) internal controls over financial aspects of IAAs; (2) internal controls over the
approval of IAAs – buyer and seller; (3) internal controls over IAAs when OPM is the buyer;
(4) internal controls over IAAs when OPM is the seller; and (5) recordkeeping over IAAs –
buyer and seller. 25

Given OPM OIG’s concerns regarding its oversight of the RF and internal controls over IAAs, it
may be prudent for SSA and other agencies being served by OPM’s ALJ Program to request a
periodic audit of the Program. Such audits may alleviate future billing and service concerns.


22
  Moreover, even if more specific wording was incorporated into the IAA, SSA was signing the IAAs after OPM
had provided the ALJ services. We reviewed IAAs with OPM for ALJ Program services from FY 2005 to FY 2011,
and we found that the IAAs were generally signed at the end of the FY after services had been performed.
23
  OPM, FY 2011 Agency Financial Statement, Section 1 – Management’s Discussion and Analysis, Compliance
with Federal Financial Management Improvement Act, November 2011, p. 24.
24
  OPM OIG, Audit of the U.S. Office of Personnel Management’s Interagency Agreement Process, Report No.
4A-CF-00-09-014, March 28, 2012.
25
     Id. at pp. 5 through 14.




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)                 8
FY 2012 Agreement for ALJ-Related Services
OPM billed SSA $2.4 million for ALJ Program services in FY 2012, which was still unpaid at
the time of our review. SSA and OPM managers differ in their opinions regarding the need for
an IAA between the two agencies to obligate and pay for these ALJ services. According to
OPM, an IAA is unnecessary since OPM has statutory authority to provide the ALJ services to
all Federal agencies. 26 Based on this interpretation, OPM decided in March 2012 that it would
no longer sign an IAA with SSA. 27 OPM managers stated SSA had sufficient authority to
obligate and expend funds to reimburse OPM for ALJ services without an IAA. SSA had an
opportunity to provide OPM with an IAA for FY 2012 before this OPM decision. However, the
two agencies did not sign an IAA for FY 2012 ALJ Program services in FY 2012. 28 OPM
indicated that SSA was the only Federal agency that had an IAA with OPM for ALJ Program
services in FY 2011. 29

SSA managers believed an IAA was required for ALJ Program reimbursement and would have
preferred that OPM continue annually signing an IAA with SSA. SSA believed the IAA would
have provided the necessary documentary evidence required to legally obligate funds to
reimburse OPM’s ALJ costs.

It appears the two agencies were citing different sections of 31 U.S.C. 1501, which provides
documentary evidence requirement for government obligation. OPM was referencing section
(a)(3), which states, “An amount shall be recorded as an obligation of the United States
Government only when supported by documentary evidence of an order required by law to be
placed with an agency.” Whereas SSA appeared to be referencing section (a)(1)(A) and (B),
which states the following.

           An amount shall be recorded as an obligation of the United States Government
           only when supported by documentary evidence of a binding agreement
           between an agency and another person (including an agency) that is in writing,
           in a way and form, and for a purpose authorized by law; and executed before
           the end of the period of availability for obligation of the appropriation or fund



26
  In responding to our draft report, OPM emphasized it already had a statutory obligation to perform the ALJ work
covered by its prior IAAs with SSA, and the law obliges Federal ALJ agencies to reimburse OPM for its ALJ
program administration. OPM also noted in its response that “…the FY 2011 IAA into which OPM entered with
SSA could not supersede either OPM’s or SSA’s obligations under law.” OPM indicated that it agreed to the IAA
with SSA because SSA requested it as a means of documenting its obligation to pay.
27
  SSA management informed us during our review that it never received a notification about OPM’s plans to
discontinue signing IAAs with SSA for its ALJ Program services.
28
  OPM provided SSA with an estimate of the FY 2012 ALJ Program costs on November 14, 2011. SSA could have
used this estimate to develop an IAA.
29
     In FY 2011, SSA had IAAs with OPM for other services besides ALJ services.




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)                           9
        used for specific goods to be delivered, real property to be bought or leased, or
        work or service to be provided.

We consulted with OMB to obtain its interpretation of existing laws and regulations related to
the need for an IAA for OPM’s ALJ Program services. OMB sent us the following written
response.

        As a general policy and good practice, we believe IAAs are an effective tool
        for managing work being performed by one Federal agency for another Federal
        agency. Lack of clear understanding of work to be performed between two
        agencies and the cost associated with that work can raise difficulties in
        providing services. IAAs can help avoid these concerns by providing a written
        agreement, clearly outlining expectations and costs. Therefore, we generally
        recommend IAAs in situations such as these.

In responding to OMB’s statement, OPM management agreed nothing prohibits an IAA between
SSA and OPM for ALJ Program services. However, OPM also stated that such an agreement
was not legally required for SSA to pay its overdue bill for FY 2012. As of January 2013, SSA
had not paid the $2.4 million in OPM charges for the FY 2012 services, and the two agencies
were working on this payment issue. 30 While we see little value in signing an IAA for FY 2012
at this point to initiate reimbursement, based on what we learned from OMB, we believe an IAA
would be beneficial in the future.

In our discussions with SSA managers, they also expressed concerns about (1) the lack of more
frequent examinations for potential ALJ candidates, (2) the qualification process OPM uses to
identify viable ALJ candidates, and (3) issues surrounding the maintenance of candidate
information on the ALJ register. SSA reported it had to re-contact hundreds of candidates to
update their geographic locations before they could make any selections. SSA reported that
other issues with OPM have affected its ability to timely hire enough qualified ALJs to meet its
2013 commitment to reduce the hearing backlog. 31 While ODAR was seeking to hire 125 ALJs
in September 2012, it only hired 46 ALJs from OPM’s ALJ register. According to SSA, it was
unable to identify additional ALJ candidates because of quality issues with the register. After the
two agencies discussed these issues in FY 2012, OPM agreed to take additional steps to address
some of these points. We discuss this further in Appendix I.

In 2007, the Social Security Advisory Board (SSAB) identified three options for Congress’
consideration pertaining to SSA’s relationship with OPM: (1) create a separate OPM register
specific to SSA’s needs; (2) create a single OPM register with supplemental qualifications data



30
  Both OPM and SSA informed us in January 2013 that OPM asked Treasury to begin the formal dispute
resolution process to seek reimbursement for the FY 2012 ALJ Program charges.
31
  Refer to Appendix H for information on SSA ALJ hiring and Appendix I for information regarding SSA ALJ
hiring challenges.




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)                  10
related to SSA (such as an ALJ’s ability to handle a large docket); and (3) transfer management
of the ALJ selection process to SSA (have SSA maintain its own separate register). SSAB noted,
“The Board believes that the Administration and the Congress should carefully review the
existing system for recruiting ALJs to assure that standards of independence are maintained and
that the selection process provides candidates for these important positions in sufficient numbers
and with the appropriate qualifications.” 32 Other parties have made recommendations regarding
OPM’s ALJ hiring and performance management. 33

In our discussions with SSA managers, they indicated the Agency would not be opposed to
maintaining a separate ALJ register specific to SSA needs or managing the ALJ selection process
but acknowledged that both options would require legislation. For example, OPM could
administer a core examination process to ensure consistency of the ALJ Program across the
government, while individual agencies could supplement this core process with agency-specific
requirements. Under such a scenario, agencies would continue reimbursing OPM for an agreed-
upon amount to develop and administer the core examination process.

Although an IAA is not legally required, OMB has indicated it is a good practice. As such, we
believe an IAA between SSA and OPM at the start of each FY can clearly identify the work to be
performed, address expectations, and provide expected costs. As part of this, both parties should
specifically set out the respective rights and obligations for each agency. Since SSA employs
four out of five of the ALJs in the Government, additional alternatives to the current process
could also be explored, such as OPM delegating SSA greater authority to manage its selection of
ALJs. OPM would continue administering the examination. As noted earlier, greater SSA
authority in this area would require a change in the law. SSA has a continuing need for a large
corps of qualified ALJs to process more than 800,000 cases annually. OPM has an obligation to
provide SSA and other Federal agencies with qualified and competent ALJs to address their
workload needs.




32
  SSAB, Recruiting SSA Administrative Law Judges: Need for Review of OPM Role and Performance, Issue
Brief #3, April 2007, p. 1.
33
  Some recommendations are discussed in the Government Accountability Office report, Results-Oriented Cultures:
Office of Personnel Management Should Review Administrative Law Judge Program to Improve Hiring and
Performance Management (GAO-10-14), January 2010, pp. 21 through 27.




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)                   11
CONCLUSIONS
OPM provided SSA with an annual billing statement showing the Agency’s pro rata share of the
FY 2011 ALJ Program estimated costs as well as additional details upon request. While OPM
believed its annual billing statement adequately supported the amount charged to SSA and
complied with the requirements under the law, SSA requested additional detail as part of its
oversight of the reported costs. Our review determined OPM met the reporting requirements
outlined in the FY 2011 IAA once it provided SSA with additional detailed cost information.
However, OPM OIG has stated concerns about its lack of resources to provide oversight of the
RF, and highlighted issues with internal controls over the IAA processes, which reinforces
SSA’s reservations about the underlying ALJ Program costs. We believe periodic audits of
OPM’s ALJ Program would alleviate some of SSA’s cost-related concerns. In FY 2012, OPM
ended its IAA process with SSA, while SSA delayed its payment for the FY 2012 services. At
the time of our review, SSA’s FY 2012 payment was still outstanding.

SSA has a continuing need for a large corps of qualified ALJs to process more than 800,000
cases annually, and OPM has an obligation to provide SSA and other Federal agencies with
qualified and competent ALJs to address their workload needs. OMB agrees that an IAA
between SSA and OPM for ALJ Program services would be a good practice to ensure SSA’s
needs are met. We support an IAA between the two agencies that clearly delineates the roles and
responsibilities of each party. Furthermore, since SSA may be willing to assume more duties
associated with the ALJ Program, any future agreements should specifically list those duties that
can be legally delegated by OPM to SSA. This should lead to a reduction in OPM charges to
SSA.




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)      12
                                       APPENDICES




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)
Appendix A – FORMAT OF A SOCIAL SECURITY
             ADMINISTRATION INTERAGENCY AGREEMENT
                                  INTERAGENCY AGREEMENT

                                              BETWEEN

                            INSERT NAME OF AGENCY (ACRONYM)

                                              AND THE

                         SOCIAL SECURITY ADMINISTRATION (SSA)

    I.      PURPOSE: The purpose of this Agreement is to memorialize the parties’ agreement
            under which SSA will reimburse INSERT APPROPRIATE DESCRIPTION OF
            PURPOSE – DESCRIBE WHAT SSA WILL RECEIVE AND WHY IT NEEDS THE
            GOODS OR SERVICES FROM THE PERFORMING AGENCY

    II.     BACKGROUND: OPTIONAL

    III.    RESPONSIBILITIES OF THE PARTIES: The responsibilities of the parties to this
            agreement are as follows:

            a. SSA’s Responsibilities:
                  i. LIST WHAT SSA WILL DO

            b. XXX’s Responsibilities:
                 i. LIST WHAT OTHER AGENCY WILL DO FOR SSA

    IV.     DURATION OF AGREEMENT: The period of performance of this agreement is
            October 1, 2___ to September 30, 2___.

    V.      MODIFICATION AND TERMINATION: Modifications to this agreement must be
            in writing and agreed to by the parties. This agreement may be terminated by either
            party upon 30 days advance written notice.

            If SSA cancels the order, XXX is authorized to collect costs incurred prior to
            cancellation of the order plus any termination costs.




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)    A-1
    VI.     POINTS OF CONTACT:

            SSA Project Coordinator:                     XXX Project Coordinator:
            NAME                                         NAME
            Social Security Administration               ADDRESS
            ADDRESS                                      PHONE
            PHONE

            SSA Accounting/Finance Contact:              XXX Accounting/Finance Contact:
            NAME                                         NAME
            Social Security Administration               ADDRESS
            ADDRESS                                      PHONE
            PHONE

            SSA Contracting Officer [if applicable]      XXX Contracting Officer [if applicable]
            NAME                                         NAME
            Social Security Administration               ADDRESS
            ADDRESS                                      PHONE
            PHONE

    VII.    FUNDING: SSA agrees to transfer funds to XXX, in the form of progress or periodic
            payments, on at least a quarterly basis, up to the sum of $_____ to support XXX's
            activities under this Agreement. Transfers of funds will be by means of the IPAC
            (Intra-Governmental Payment and Collection) system. The SSA IAA number must
            be cited on all IPAC submissions.

            At least quarterly, but no later than 30 days after an accountable event, XXX shall
            provide SSA with a performance report (e.g. a billing statement) that details all work
            performed to date. Additionally, at least quarterly, the parties will reconcile balances
            related to revenue and expenses for work performed under the Agreement.

    VIII.   AUTHORITY: INSERT CITATION TO LEGAL AUTHORITY

    IX.     INTEGRATION CLAUSE: This agreement and the accompanying Form SSA-429
            constitute the entire Agreement of the parties with respect to its subject matter. There
            have been no representations, warranties or promises made outside of this Agreement.
            This Agreement shall take precedence over any other documents that may be in
            conflict with it.

    X.      DISCLAIMER: SSA will not accept responsibility for reimbursement of late fees or
            other costs incurred due to the negligence of the servicing agency in complying with
            its obligations to third party contractors.

    XI.     DISPUTE RESOLUTION: Disputes related to this IAA shall be resolved in
            accordance with instructions provided in the Treasury Financial Manual (TFM)


Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)          A-2
            Volume I, Part 2, Chapter 4700, Appendix 10 Intragovernmental Business Rules
            (June 2011).

    XII.    AUTHORIZING SIGNATURES AND DATES: The signatories below warrant and
            represent that they have the competent authority on behalf of their respective agencies
            to enter into the obligations set forth in this Agreement.



SOCIAL SECURITY ADMINISTRATION                       XXX



____________________________________                 ____________________________________
NAME                                                 NAME
TITLE                                                TITLE

Date: _______________________________                Date: _______________________________




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)       A-3
Appendix B – ADMINISTRATIVE LAW JUDGE EXAMINATION
             PROCESS
       Figure B–1: The Office of Personnel Management’s Administrative Law Judge
                                   Examination Process

Step 1: Entry-level administrative law judge (ALJ) open period is announced on USAJOBS
Website (see Note 1).
Step 2: Applicant completes the online application, which includes (1) qualifications;
(2) claimed veterans’ preference; and (3) Accomplishment Record (AR) (narrative responses
about work-related experiences).
Step 3: Office of Personnel Management (OPM) evaluates application: (1) reviews
qualifications; (2) adjudicates veterans’ preference; and (3) rates AR.
Step 4: OPM notifies applicants of status based on minimum qualifications and AR score.
Applicants who are in the high-scoring group on the AR are invited to continue the examination
process with the Written Demonstration (WD) exercise and Structured Interview (SI) (see Note
2).
Step 5: Applicants who are moving forward in the examination process complete the proctored
WD and the in-person SI.
Step 6: OPM notifies each applicant who completed the entire examination of his/her final
rating.
Step 7: Applicants who have completed the entire examination are placed on a central register
of eligible applicants. Subsequent applicants are merged into the existing register (see Note 3).
Step 8: When agencies request certificates to fill ALJ vacancies, OPM refers certificates of
applicants in score order based on the locations of the vacancies to be filled.
Note 1: Under 5 C.F.R. 332.311, individuals who are eligible for 10-point preference are entitled to file an
        application at any time to open the ALJ examination upon request because OPM maintains the ALJ
        standing register. The ALJ examination process for 10-point preference eligibles mirrors the primary
        examination. However, it is administered quarterly to this smaller pool of applicants.
Note 2: Applicants who do not meet the minimum qualifications or who are not in the high-scoring group on the
        AR can appeal.
Note 3: Applicants can appeal their final scores but remain on the register during the appeal process. The appeal
        consists of a review of all aspects of the examination. OPM adjudicates applicant appeals. Adjudication of
        appeals involves a review of the same exam process as described above. Applicants are informed that their
        ratings may rise, fall, or stay the same as a result of the appeal. Appeal results are final.




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)                      B-1
Appendix C – SCOPE AND METHODOLOGY
To accomplish our objectives, we:

•   Reviewed applicable laws and regulations, as well as Agency and other Federal policies and
    procedures, related to interagency agreements (IAA) and the hiring of administrative law
    judges (ALJ).
•   Reviewed prior Social Security Administration (SSA) and Office of Personnel Management
    (OPM) Offices of the Inspector General (OIG) and Government Accountability Office
    reports pertaining to IAAs and OPM’s ALJ Program services.
•   Met with Agency executives, managers, and staff in SSA’s Offices of the Deputy
    Commissioners for Disability Adjudication and Review; Human Resources; Budget, Finance
    and Management; and General Counsel.
•   Consulted with the Office of Management and Budget regarding Federal IAA policy.
•   Interviewed SSA and OPM staff responsible for approving, monitoring, and paying the
    IAAs.
•   Interviewed representatives at the Department of Health and Human Services, the second
    largest Federal ALJ agency serviced by OPM, to learn about its experiences with OPM’s
    ALJ Program.
•   Obtained copies of the signed IAAs between SSA and OPM for ALJ services from Fiscal
    Years (FY) 2005 to 2011, as well as documentation supporting the request and payment for
    ALJ-related services. We also discussed the status of the FY 2012 IAA.
•   Reviewed FY 2011 IAA between SSA and OPM for ALJ services, quarterly reports, and the
    available accounting and performance detail.
•   Requested and reviewed SSA communications with OPM related to billings for ALJ
    services.
•   Coordinated the review with OPM’s OIG staff.

Our review was limited in scope to analyzing data as supplied to us by SSA and OPM. As such,
we relied on the representations of Agency and OPM personnel indicating the data reported to us
were complete and accurate to the best of their awareness and ability. Accordingly, our work did
not constitute an audit of such information. We conducted our review from August 2012 through
January 2013 in Chicago, Illinois, and Washington, DC. The principle entities audited were the
Offices of the Deputy Commissioners for Budget, Finance and Management and Human
Resources. We conducted our work in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)    C-1
Appendix D – ANNUAL BILLING LETTER AND STATEMENT




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)   D-1
Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)   D-2
Appendix E – LIST OF ADMINISTRATIVE LAW JUDGE
             PROGRAM SERVICES
         Table E–1: Fiscal Year 2011 Administrative Law Judge Program Activities
                                               Staffing
 •   Nine full-time staff required to administer the administrative law judge (ALJ) program
 •   Intermittent part-time staff consisting of retired ALJs and support staff (see Note).
                                         ALJ Examinations
 •   Administrating ALJ quarterly exams for 10-point preference eligible veterans
 •   Determining applicants’ basic qualifications
 •   Evaluating Accomplishment Record (AR) narratives and analyzing AR results
 •   Scheduling and scoring Written Demonstration (WD) submissions
 •   Performing and rating Structured Interviews (SI)
 •   Conducting training to AR raters, WD raters, and SI panel members
 •   Compiling/analyzing results and determining ratings of all assessment phases
 •   Adjudicating and processing appeals
 •   Participating in meetings regarding automation process improvements and modifications
     for the administration and scoring of the examination
 •   Maintaining applicant records and posting the announcement/closure notices
 •   Coordinating/conducting internal planning meetings and ALJ stakeholder meetings
     regarding the ALJ Occupational Analysis
 •   Facilitating Subject Matter Expert site visits to obtain occupational information
 •   Compiling/processing financial data for Fiscal Year 2011 annual agency billing cycle.
                                             Certificates
 •   Issuing certificates to include customized certificate matrices and unique geographic
     availability list per applicant
 •   Auditing certificates
 •   Updating applicant records and geographic preferences based on certificate inquiries
 •   Verifying applicant availability status
 •   Updating ALJ register based on results of certificate selections/audits.




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)     E-1
                                               Communications
 •      Answering correspondence (applicant, congressional and other stakeholder inquiries)
 •      Responding to litigation and Equal Employment Opportunity complaints
 •      Processing Freedom of Information Act requests
 •      Addressing telephone inquiries from agency officials and human resource staff members.
                                               Other Expenses
 •      Corporate expenses, common services, rent, telecommunications, information technology,
        etc.
Note:     In Appendix F, we provide more details about the ALJ Program staffing.

Source: The Office of Personnel Management provided this information to the Social Security Administration on
        August 26, 2011.




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)                   E-2
Appendix F – ADMINISTRATIVE LAW JUDGE PROGRAM
             OFFICE STAFF
The Office of Personnel Management (OPM) provided us with a list of the 9 full-time and
11 reemployed retired ALJs that worked on administrative law judge (ALJ) activities. 1

                             Table F–1: OPM’s ALJ Program Office Staff
      Position        Grade Level                       Summary of Duties (Not All Inclusive)
      Program                            Manages the overall functions of the ALJ Program Office
                          GS-15
      Manager                            (examining and noncompetitive functions).
                                         Serves as lead HR Specialist for the ALJ’s examining functions
       Human
                                         Program Office (that is, maintenance of the ALJ register; issuance/
      Resources
                          GS-14          auditing of certificates; coordination of ALJ exams; appeals;
        (HR)
                                         responding to applicants; congressional requests; and Freedom of
      Specialist
                                         Information Act (FOIA) and Privacy Act requests).
                                         Serves as FOIA coordinator; reasonable accommodation point of
    HR Specialist         GS-13          contact; exam scheduling coordinator; ALJ Program Office budget
                                         point of contact; and examining duties and appeals coordinator.
    HR Specialist                        Issues/audits certificates; responds to a variety of correspondence;
       (Two               GS-13          maintains ALJ register; coordinates exam; and supports appeals
     positions)1                         function.
                                         Acts on matters pertaining to the noncompetitive functions of the
      Program                            ALJ Program Office (that is, ALJ noncompetitive actions;
                          GS-13
      Analyst                            classification requests; Senior ALJ requests; and ALJ loan
                                         requests).
                                         Issues/audits certificates; responds to correspondence; maintains
    HR Specialist         GS-12
                                         ALJ register; coordinates exam; and supports appeals function.
      Program                            Issues/audits certificates; responds to applicant inquiries; records
                          GS-12
      Analyst                            disposition point of contact, and supports appeals function.
    Administrative
                          GS-7           Performs administrative support for the ALJ Program Office.
      Assistant
                                         Serve as raters for the Written Demonstration and as panelists for
    Retired ALJs2         Expert
                                         the Structured Interview; and assists in other areas where needed.
Note 1: Both positions have the same title, grade, and responsibilities.
Note 2: The number and cost for the experts varies from year to year depending on the volume of applicants that go
        through the ALJ examination process.
Source: OPM provided this information to the Office of the Inspector General as part of this review.




1
 According to OPM, all positions were devoted to ALJ activities full-time, except the intermittent part-time retired
ALJs.




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)                         F-1
Appendix G – FEDERAL ADMINISTRATIVE LAW JUDGE
             PROGRAM AGENCIES
In Fiscal Year 2011, the Office of Personnel Management billed Federal agencies a pro rata
share of the administrative law judge (ALJ) program costs based on the actual number of ALJs
employed as of December 2010. At that time, the Social Security Adminstration had 1,448 ALJs
employed, or about 85 percent of all Federal ALJs (see Table G–1).

                  Table G–1: Number of Federal ALJs as of December 2010
                              Federal Agencies                                    Number of ALJs
        1      Social Security Administration                                         1,448
        2      Department of Health and Human Services                                  70
        3      Department of Labor                                                      44
        4      National Labor Relations Board                                           39
        5      Federal Mine Safety and Health Review Commission                         19
        6      Federal Energy Regulatory Commission                                     15
        7      Occupational Safety and Health Review Commission                         12
        8      Department of the Interior                                               11
        9      Department of Homeland Security                                           7
       10      International Trade Commission                                            6
       11      Department of Justice                                                     4
       12      National Transportation Safety Board                                      4
       13      Department of Agriculture                                                 3
       14      Environmental Protection Agency                                           3
       15      Federal Labor Relations Authority                                         3
       16      Securities and Exchange Commission                                        3
       17      Commodity Futures Trading Commission                                      2
       18      Department of Housing and Urban Development                               2
       19      Department of Transportation                                              2
       20      Federal Maritime Commission                                               2
       21      Department of Education                                                   1
       22      Federal Communications Commission                                         1
       23      Federal Trade Commission                                                  1
       24      Office of Financial Institution Adjudication                              1
       25      United States Postal Service                                              1
       26      Merit Systems Protection Board                                            0
       27      Small Business Administration                                             0
   TOTAL                                                                                1,704

Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)          G-1
Appendix H– SOCIAL SECURITY ADMINISTRATION
            ADMINISTRATIVE LAW JUDGE HIRING
The Office of Personnel Management (OPM) maintains a register of eligible candidates for the
administrative law judge (ALJ) position. Upon request, OPM provides the Social Security
Administration (SSA) with a certificate of eligible candidates to hire for the ALJ position. OPM
established the current register in May 2007. Since then, OPM has re-opened the examination
twice. With the exception of the 10-point preference eligible veterans, 1 the last time OPM
administered the examination was in November 2009. Between Fiscal Years (FY) 1998 and
2012, SSA hired approximately 1,230 ALJs (see Table H–1).

                  Table H–1: ALJs Hired by SSA from FYs 1998 Through 2012

              Selected from          Transfers from
     FY                                                         Reinstatements3            Total ALJs Hired
               Certificates1         Other Agencies2
    1998             0                       0                          0                           0
    1999             0                       0                          0                           0
    2000             0                       1                          0                           1
    2001             0                       6                          0                           6
    2002            125                      1                          0                          126
    2003             0                       0                          0                           0
    2004            102                      0                          0                          102
    2005            98                       0                          0                          98
    2006            38                       3                          0                          41
    2007             0                       4                          0                           4
    2008            184                      4                          1                          189
    2009            142                      3                          0                          145
    2010            226                      3                          0                          229
    2011            143                      0                          0                          143
    2012            144                      1                          1                          146
    Total          1,202                     26                         2                         1,230
Note 1: SSA has not always been able to obtain the ALJs it needed to process its hearings workload. With the
        exception of a 1-time hiring of 126 ALJs in early FY 2002, SSA was precluded from hiring ALJs from the
        register between 1999 and 2003 because of an adverse ruling in litigation before the Merit Systems
        Protection Board (MSPB), then referred to as the Azdell litigation (now referred to as Meeker v. MSPB, 319
        F.3d 1368 (Fed. Cir. 2003)).
Note 2: SSA’s selection of an ALJ from the rolls of another agency.



1
 OPM administers an examination for 10-point preference eligible veterans. 5 U.S.C. § 3305(b) and 5 C.F.R.
§ 332.311 require OPM to hold an examination not later than the quarterly period succeeding that in which the
application is filed.




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)                       H-1
Note 3: SSA’s re-hiring of someone who previously held an ALJ position and who was previously selected from an
        ALJ certificate.

The growth in SSA hiring of ALJs since FY 2007 related to a number of factors, including the
increase in the hearings backlog during the period ALJ hiring was restricted. In FY 2007, SSA’s
Commissioner announced an initiative to reduce the size of the hearings backlog, which included
additional hiring of ALJs. 2 In addition, on February 17, 2009, the President signed the American
Recovery and Reinvestment Act of 2009 (ARRA), which provided SSA with $500 million to
process disability and retirement workloads. SSA used a portion of these funds to hire additional
ALJs. 3




2
  SSA’s Plans to Reduce the Disability Backlogs: Hearing Before Senate Finance Committee, 110th Cong. (May 23,
2007) (Statement on the Record of Michael J. Astrue, Commissioner of Social Security). SSA established more
than 30 initiatives to eliminate the hearings backlog.
3
  Pub. L. No. 111-5, Division A, Title VIII, 123 Stat.115, 185 – 186 (2009). ARRA allowed SSA to use up to
$40 million of these funds for health information technology research and activities to facilitate the adoption of
electronic medical records in disability claims. Id. We discuss this hiring in our August 2010 audit, The Social
Security Administration’s Hiring Under the American Recovery and Reinvestment Act of 2009 (A-12-10-11050).




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)                            H-2
Appendix I – ADMINISTRATIVE LAW JUDGE HIRING
             CHALLENGES
As part of our review of the Office of Personnel Management’s (OPM) administrative law judge
(ALJ) Program services, we learned about the Social Security Administration’s (SSA) concerns
with the process as it relates to a new examination process as well as the maintenance of the ALJ
register. OPM has responded to SSA’s concerns to resolve some of these issues.

ALJ Examination
In Fiscal Year (FY) 2012, SSA’s Commissioner repeatedly requested that OPM reopen the ALJ
examination and add new candidates to the ALJ register. The last opening of OPM’s ALJ
examination process was in November 2009. The only exception has been examinations held for
10-point preference veterans. SSA was concerned about its ability to timely hire enough
qualified candidates to meet its 2013 commitment to reduce the time Americans wait for a
hearing. 1

SSA has met with and provided comments to OPM regarding the next ALJ examination. For
example, in a May 2012 letter to OPM, both SSA and the HHS expressed concerns about OPM’s
examination and qualification process, offering proposals related to identifying viable candidates
and the formulation of the ALJ examination.

Maintenance of the ALJ Register
According to SSA staff, some certificates were issued and re-issued because of such issues as the
following.

     Some ALJ candidates were referred to the Agency without meeting the licensure
      qualifications requirement established by OPM.

     An OPM certificate contained incorrect geographic availability locations where the
      candidates preferred to work. For example, Portland, Maine, was listed instead of
      Portland, Oregon. SSA stated that, as a result, staff had to re-contact hundreds of
      candidates to update the certificates before making any selections. 2

     The number of individuals on the OPM certificate of eligible candidates who failed to
      respond to SSA’s consideration notice for the ALJ position continued to increase in


1
  During our discussions with managers at the Department of Health and Human Services (HHS), we learned that
they had similar concerns regarding a new examination.
2
 SSA staff later informed us that OPM implemented a quality control review before issuing subsequent certificates,
which led to a reduction in errors with candidate geographic availability.




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)                       I-1
        FY 2012. For example, OPM issued a certificate in June 2012 and 20 percent of the
        candidates failed to respond.

     In FY 2012, SSA’s request for bilingual candidates in its San Juan, Puerto Rico office
      was returned without a certificate of eligible candidates because of a lack of candidates.

     Some of the candidates SSA selected for the ALJ position in the past continued to show
      as potential candidates on new lists provided to SSA.

OPM’s Response to SSA’s Concerns
In FY 2012, OPM responded to a number of SSA’s concerns in the form of a letter. OPM stated
it was developing a new examination to administer in 2013. In addition, OPM stated it had
(1) re-publicized the ability of the 10-point preference eligible veterans to take the ALJ
examination; (2) allowed applicants on the current ALJ register to update their geographic
availability; (3) made expedited suitability investigations available to SSA; (4) expedited the
adjudication of objection and passover requests; and (5) adjudicated the licensure requirement
for the specific ALJ candidates currently certified to SSA whom SSA believes are not currently
in compliance with the licensure requirement. When we discussed these changes with SSA
managers, they noted that the OPM changes occurred after the Agency requested a certificate
from the register for the September 2012 hiring, so the changes above had not yet taken effect.
Additionally, OPM informed SSA it intended to leave the next application period open for at
least a week, which SSA believes will result in a larger pool of highly qualified candidates.

OPM staff informed us that SSA’s increased hiring needs led to three iterations of opening the
ALJ examination over 3 years (2007 through 2009). OPM explained that this pace of
examination taxed OPM’s resources while reducing the future utility of the examination. OPM
stated that the time it spent on testing under the 2007 examination reduced the amount of time
OPM had to prepare the next examination. OPM attributes this 3-year examination workload to
the delay in the next ALJ examination, still being prepared at the time of our review, about 3
years after the last ALJ test was administered.




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)      I-2
Appendix J – MAJOR CONTRIBUTORS
Walter Bayer, Director, Chicago Audit Division

Deborah Kinsey, Audit Manager, Chicago Audit Office

Linda Smid, Auditor-in-Charge




Interagency Agreements with the OPM for Administrative Law Judge Services (A-05-12-22144)   J-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
